     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601



October 17, 2011

Report Number: A-05-10-00075

Ms. Sandy Miller
President
National Government Services
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Medicare Part A and Part B Administrative Costs
for the Period October 1, 2006, Through September 30, 2007 at National Government Services—
Medicare Contractor Numbers 00130 and 00630. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at
Stephen.Slamar@oig.hhs.gov. Please refer to report number A-05-10-00075 in all
correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandy Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health and Human Services
             OFFICE OF

        INSPECTOR GENERAL





 AUDIT OF MEDICARE PART A AND

PART B ADMINISTRATIVE COSTS FOR 

  THE PERIOD OCTOBER 1, 2006,

 THROUGH SEPTEMBER 30, 2007 AT 

NATIONAL GOVERNMENT SERVICES





                        Daniel R. Levinson

                         Inspector General


                          October 2011

                          A-05-10-00075

                    Office of Inspector General
                                    http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency,
and effectiveness of departmental programs. To promote impact, OEI reports also present
practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With investigators
working in all 50 States and the District of Columbia, OI utilizes its resources by actively
coordinating with the Department of Justice and other Federal, State, and local law enforcement
authorities. The investigative efforts of OI often lead to criminal convictions, administrative
sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                        Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries and Part B carriers that process and pay Medicare claims
submitted by health care providers. Contracts between CMS and the Medicare contractors define
the functions to be performed and provide for the reimbursement of allowable administrative
costs incurred in the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative Cost
Proposal (FACP) reporting the Medicare administrative costs incurred during the year. The FACP
and supporting data provide the basis for the CMS contracting officer and contractor to negotiate a
final settlement of allowable administrative costs. When claiming costs, Medicare contractors must
follow cost reimbursement principles contained in Part 31 of the Federal Acquisition Regulation
(FAR) and other applicable criteria.

Until December 2006, AdminaStar Federal was the Medicare contractor under CMS’ Medicare
contractor number 00130 and 00630 and processed Medicare Part A claims for providers in four
states and Part B claims for providers in two states. In January 2007, National Government Services
(NGS) assumed Medicare operations of AdminaStar Federal. NGS reported Medicare
administrative costs totaling $46,451,583 for Part A, under contract 00130, and $29,500,185 for
Part B, under contract 00630, in its FACPs for October 1, 2006, through September 30, 2007
(FY 2007).

The name "National Government Services" used in this report refers to the current Medicare
contractor National Government Services and its predecessor AdminaStar Federal.

OBJECTIVE

Our objective was to determine whether administrative costs NGS reported on its FACPs for FY
2007 were reasonable, allowable, allocable, and in compliance with the FAR and other
applicable criteria.

SUMMARY OF FINDINGS

Administrative costs claimed by NGS on its FY 2007 FACPs were generally reasonable,
allowable, allocable, and in compliance with the FAR and other applicable criteria. However,
NGS reported unallowable costs totaling $15,897 for contract 00130 because it overstated costs
for outside professional services, facility or occupancy, telephone, travel and fringe benefits and
$4,750 for contract 00630 for overstated miscellaneous and travel costs. We attribute the
unallowable costs to weaknesses in NGS’s internal controls for assuring that costs reported on its
FACPs are fully supported with adequate documentation.




                                                 i
RECOMMENDATIONS

We recommend that NGS:

   •	 decrease its FY 2007 FACPs by $15,897 for contract 00130 and $4,750 for contract
      00630 to reflect the unallowable costs and

   •	 strengthen its internal controls to assure that all costs reported on its FACPs are fully
      supported with adequate documentation.

NGS COMMENTS

In its comments on the draft report, NGS agreed with our recommendations. NGS’ comments
appear in their entirety as Appendix C.




                                                ii
                                                        TABLE OF CONTENTS



INTRODUCTION................ .............. .. .... ..... ..................... ..... ....... ............ .... ....... ..... 1 


     BACKGROUND ... ........ .......... ... ............ ..... ..... ......... ... ... ..................................... . 1 


     OBJECTIVE, SCOPE, AND METHODOLOGY ................................................. 1 

       Objective ......... ... ... ..... ... ................... ..... .. ............. ... ........... ...... .......... .. ............ 1 

       Scope .. ............. ...... ............. ............ ..................... ... .......... .................. .. ........... . 1 

       Methodology ... ................. ..... ... ... .... ................ ..... ........ ...... .. .. ......... .. ... .. ........ .. 2 


FINDINGS AND RECOMMENDATIONS ............................................................ 2 


     UNALLOWABLE COSTS ................................................................................... 3 

       NGS Contract 00130 ........................................................................................ 3 

       NGS Contract 00630 ............ ............... ......... ................................................ ... .3 


     RECOMMENDATIONS ............................................ ........... ...... .......... ................ 4 


     NGS COMMENTS ........... ...... ..................... .... ............. .. ............................. ...... .. .. 4 


     OFFICE OF INSPECTOR GENERAL RESPONSE .. .... ...................................... 4 




APPENDIXES

     A: 	 COSTS REPORTED ON FINAL ADMINISTRATIVE COST 

          PROPOSAL BY COST CLASSIFICATION 


     B: 	 OFFICE OF INSPECTOR GENERAL RECOMMENDED COST 

          ADJUSTMENTS 


     c: 	NGS COMMENTS




                                                                            III
                                            INTRODUCTION


BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries and Part B carriers that process and pay Medicare claims
submitted by health care providers. 1 Contracts between CMS and the Medicare contractors
define the functions to be performed and provide for the reimbursement of allowable
administrative costs incurred in the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative Cost
Proposal (FACP) that reports the Medicare administrative costs incurred during the year. The FACP
and supporting data provide the basis for the CMS contracting officer and contractor to negotiate a
final settlement of allowable administrative costs. When claiming costs, Medicare contractors must
follow cost reimbursement principles contained in Part 31 of the Federal Acquisition Regulation
(FAR) and other applicable criteria.

Until December 2006, AdminaStar Federal was the Medicare contractor under CMS’s Medicare
contractor numbers 00130 and 00630 and processed Medicare Part A claims for providers in four
states and Part B claims for providers in two states. In January 2007, National Government Services
(NGS) assumed Medicare operations of AdminaStar Federal. NGS reported Medicare
administrative costs totaling $46,451,583 for Part A, under contract 00130, and $29,500,185 for
Part B, under contract 00630, in its FACPs for October 1, 2006, through September 30, 2007
(FY 2007).

The name "National Government Services" used in this report refers to the current Medicare
contractor National Government Services and its predecessor AdminaStar Federal.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether administrative costs NGS reported on its FACPs for FY
2007 were reasonable, allowable, allocable, and in compliance with the FAR and other
applicable criteria.

Scope

Our review covered the period October 1, 2006, through September 30, 2007 (FY 2007). For
this period, NGS reported Medicare administrative costs totaling $46,451,583 for contract 00130
and $29,500,185 for contract 00630. This total included pension costs of $162,354 for contract


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the Medicare Part A and Part B workloads to Medicare administrative contractors between
October 2005 and October 2011.


                                                       1

00130 and $108,236 for contract 00630 that we did not review because pension costs will be the
subject of a separate review.

We reviewed NGS's internal controls related to the claiming of costs on the FACPs. We
conducted this analysis to accomplish our objective and not to provide assurance of the internal
control structure.

We conducted fieldwork at NGS's office in Louisville, Kentucky.

Methodology

To accomplish the objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidelines;

   •	 reviewed NGS’s contracts with CMS;

   •	 reviewed National Government Services external audit reports for calendar years 2006
      and 2007 and an Office of Inspector General audit report for FY 2006;

   •	 interviewed NGS officials regarding the cost accumulation processes for its FACP and
      cost allocation systems;

   •	 reconciled line item expenses on the FACPs and cost classification report to NGS’s
      accounting records;

   •	 tested costs for reasonableness, allowability, and allocability by reviewing contracts and
      agreements and by judgmentally selecting journal entries, invoices, expense vouchers and
      reports, payroll journals, corporate bonus plans, and personnel records; and

   •	 reviewed total compensation paid to the five highest paid executives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Administrative costs claimed by NGS on its FY 2007 FACPs were generally reasonable,
allowable, allocable, and in compliance with the FAR and other applicable criteria. However,
NGS reported unallowable costs totaling $15,897 for contract 00130 because it overstated costs
for outside professional services, facility or occupancy, telephone, travel and fringe benefits, and
$4,750 for contract 00630 due to overstated miscellaneous and travel costs. We attribute the



                                                 2

unallowable costs to weaknesses in NGS’s internal controls for ensuring that costs reported on its
FACPs are fully supported with adequate documentation.

UNALLOWABLE COSTS

NGS Contract 00130

Requirements

Pursuant to FAR 31.201–2(d):

       A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements. The contracting officer may disallow all or part of a claimed cost
       that is inadequately supported.

NGS could not provide adequate documentation to support outside professional services costs of
$9,068, facility or occupancy costs of $2,862, telephone costs of $2,286, and travel costs of
$1,192 that it reported on its FY 2007 FACP.

Pursuant to FAR 31.205-22(a)(1):

       Costs associated with the following activities are unallowable: (1) Attempts to
       influence the outcomes of any Federal, State, or local election, referendum,
       initiative, or similar procedure, through in kind or cash contributions,
       endorsements, publicity, or similar activities ....

NGS allocated unallowable fringe benefits costs totaling $489 for membership fees associated
with lobbying costs.

NGS Contract 00630

Requirements

Pursuant to FAR 31.201–2(d):

       A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements. The contracting officer may disallow all or part of a claimed cost
       that is inadequately supported.




                                                3

NGS could not provide adequate documentation to support miscellaneous costs of $4,664 and
travel costs of $86 that it reported on its FY 2007 FACP.

RECOMMENDATIONS

We recommend that NGS:

   •	 decrease its FY 2007 FACPs by $15,897 for contract 00130 and $4,750 for contract
      00630 to reflect the unallowable costs and

   •	 strengthen its internal controls to assure that all costs reported on its FACPs are fully
      supported with adequate documentation.

NGS COMMENTS

In its comments on the draft report, NGS agreed with our recommendations. NGS’ comments
appear in their entirety as Appendix C.




                                                4

APPENDIXES

                                                                              Page 1 of 2


      APPENDIX A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST
                  PROPOSAL BY COST CLASSIFICATION


                                     NGS Contract 00130
                     Cost Category                        Total Costs Claimed
Salaries/Wages                                                       $14,345,976
Fringe Benefits                                                        9,693,616
Facility or Occupancy                                                    135,596
EDP Equipment                                                          1,916,347
Subcontracts                                                                    -
Outside Professional Services                                            146,829
Telephone                                                                 29,428
Postage                                                                2,269,656
Furniture & Equipment                                                        699
Material & Supplies                                                      754,875
Travel                                                                   149,416
Return on Investment                                                      67,188
Miscellaneous                                                         19,894,678
Other                                                                           -
Subtotal                                                              49,404,304

Other Adjustments (Credits)                                          (2,952,721)
Total Costs Claimed on Final Administrative Cost
Proposal                                                              46,451,583
OIG Recommended Adjustments*                                              15,897
Total Costs after Adjustments                                        $46,435,686

OIG = Office of Inspector General

* See Appendix B
                                                                          Page 2 of 2


      APPENDIX A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST
                  PROPOSAL BY COST CLASSIFICATION


                                 NGS Contract 00630

                     Cost Category                    Total Costs Claimed
Salaries/Wages                                                     $9,435,244
Fringe Benefits                                                     6,263,697
Facility or Occupancy                                                 128,034
EDP Equipment                                                       1,403,746
Subcontracts                                                                -
Outside Professional Services                                          68,641
Telephone                                                              11,001
Postage                                                             1,865,875
Furniture & Equipment                                                     233
Material & Supplies                                                   633,796
Travel                                                                121,343
Return on Investment                                                   62,477
Miscellaneous                                                      17,701,466
Other                                                                       -
Subtotal                                                           37,695,553
Other Adjustments (Credits)                                       (8,195,368)
Total Costs Claimed on Final Administrative Cost
Proposal                                                          29,500,185
OIG Recommended Adjustments*                                           4,750
Total Costs after Adjustments                                   $29,495,435

* See Appendix B
     APPENDIX B: OFFICE OF INSPECTOR GENERAL

         RECOMMENDED COST ADJUSTMENTS


                       NGS Contract 00130


                                             Total Part A
                                             Adjustments
Cost Category                                 (FY 2007)
Fringe Benefits                                         $489
Facility or Occupancy                                  2,862
Outside Professional Services                          9,068
Telephone                                              2,286
Travel                                                 1,192

Total OIG Recommended Adjustments                   $15,897



                       NGS Contract 00630

                                             Total Part B
                                             Adjustments
Cost Category                                 (FY 2007)
Travel                                                   $86
Miscellaneous                                          4,664

Total OIG Recommended Adjustments                    $4,750
          APPENDIX C: NATIONAL GOVERNMENT SERVICES COMMENTS



f~National~vernm~
 ?{       semces.
  A CMS Contracted Agent                                                         Medicare
  National Government Services, Inc.
  www.NGSMedicare.com



  September 19, 2011

  Mr. James M. Barton
  Acting Regional Inspector General for Audit Services
  Office of Audit Services, Region V
  233 North Michigan Avenue, Suite 1360
  Chicago, IL 60601

  Reference: Report Number A-05-10-00075 - Audit of Medicare Part A and Part B Administrative Costs
  for the Period October 1,2006 Through September 30,2007 at National Government Services­
  Medicare Contractor Numbers 00130 and 00630.

  Dear Mr. Barton:

  We have reviewed the draft audit report referenced above and concur with the findings identified in
  the report. Thank you for the opportunity to review and respond to the draft report. If you have any
  further questions, I can be reached at 414-459-5606 or via email attodd .reiger@wellpoint.com.

  Sincerely,
                                       Digitally signed by Todd W. Reiger
                                       DN: cn = Todd W. Reiger, o=National
                                       00vernment Services, Inc., Qu:=Finance,
                                       email=todd.reiger@wellpoint.com. c=US
                                       Date: 2011.09.19 13:59:49 -05'00'

  Todd W. Reiger, CPA
  Chief Financial Officer, Medicare Operations

  CC: 	             Sandy Miller
                    Michael Kapp
                    Jeff Hannah
                    Wendy Perkins
                    Jim Elmore
                    Jason Brauer
                    Kathy Bissell
                    Martha Nelson
                    Linda Lenzi-Radek - OIG
                    Stephen Slamar - Ole




                                                                                        c/WsJ 

